No.
In The

Supreme Court of the United States
Susan M. Pearsall,
Petitioner
v.
Thomas C. Guernsey, DDS
Respondent

On Petition For Writ Of Certiorari
To The Third District Court of Appeals Of The State
Of Ohio

PETITION FOR WRIT OF CERTIORARI

Susan M. Pearsall
Pro Se
2447 Tiffin Ave. #139
Findlay, Ohio 45840
419-889-3564

QUESTIONS PRESENTED FOR REVIEW
I.
Whether it is unconstitutional for the Court to
write, rewrite, modify, or add to a so-called
settlement agreement without the consent of the
parties it binds.
II.
Whether it is unconstitutional for an appellate
court, upon review of a trial court's order enforcing a
so-called settlement agreement, to not affirm or
reverse the so-called settlement agreement as a
whole, but to create an alternative version by
affirming in part and reversing in part.

1

DIRECTLY RELATED PROCEEDINGS
Pearsall v. Guernsey, No. 2014 CV 00525,
Common Pleas Court of Hancock County, Ohio.
Judgment entered Feb. 25, 2015.
Pearsall v. Guernsey, No. 05-15-09, Third
District Court of Appeals, Hancock County, Ohio.
Judgment entered Apr. 3, 2015.
Pearsall v. Guernsey, No. 2016 CV 00067,
Common Pleas Court of Hancock County, Ohio.
Judgment entered Feb. 22, 2019.
Pearsall v. Guernsey, No. 05-16-24, Third
District Court of Appeals, Hancock County, Ohio.
Judgment entered Oct. 21, 2016.
Pearsall v. Guernsey, No. 05-16-25, Third
District Court of Appeals, Hancock County, Ohio.
Judgment entered Feb. 27, 2017.
Pearsall v. Guernsey, No. 05-17-06, Third
District Court of Appeals, Hancock County, Ohio.
Judgment entered Mar. 6, 2017.
Pearsall v. Guernsey, No. 05-17-08, Third
District Court of Appeals, Hancock County, Ohio.
Judgment entered May. 10, 2017.
Pearsall v. Guernsey, No. 05-18-14, Third
District Court of Appeals, Hancock County, Ohio.
Judgment entered Jan. 14, 2019.
Pearsall v. Guernsey, No. 19*0304, Supreme
Court of Ohio. Judgment entered Jul. 23, 2019.
Pearsall v. Guernsey, No. 05-19-08, Third
District Court of Appeals, Hancock County, Ohio.
Judgment entered Oct. 10, 2019.
li

TABLE OF CONTENTS
Page
1
QUESTIONS PRESENTED FOR REVIEW......
DIRECTLY RELATED PROCEEDINGS...........
n
m
TABLE OF CONTENTS......................................
TABLE OF CITED AUTHORITIES...................
IV
1
PETITION FOR A WRIT OF CERTIORARI......
OPINIONS BELOW.............................................
1
JURISDICTION...................................................
1
CONSTITUTIONAL PROVISIONS INVOLVED.... 2
STATEMENT OF THE CASE..........................
3
REASONS FOR GRANTING THE PETITION....... 6
CONCLUSION
8
APPENDIX..... ..................................................... App.l
Appendix A
Judgment Entry of the State of Ohio
Court of Appeals for the Third
District, Case No. 05-18-14 (January
App. 1
14, 2019)
Appendix B
Judgment Entry of the State of Ohio
Court of appeals for the Third
District, Case No. 05-19-08
(September 3, 2019)
App. 19
Appendix C
Entry of the Supreme Court of Ohio,
No. 19-0304 (May 15, 2019)....App. 27
Appendix D
Entry of the Supreme Court of Ohio,
No. 19-0304 (Jul. 23, 2019)....App. 29

m

TABLE OF CITED AUTHORITIES
CASES
Hainey v. Parrot, 617 F.Supp.2d 668 (§ III.)........... 7
In re Telectronics Pacing Systems, Inc.,
137 F.Supp.2d 985 p. 1008, motion denied 148
F.Supp.2d 936 ...................................................... 7
Levell v. Monsanto Research Corp., 191 F.R.D. 543
7,8
Montgomery v. Liberty Twp. Bd. OfEdn.,
6
102 Ohio St. 189, 193, 131 N.E. 97...............
Murra v. Farrauto,
6
10th Dist. No. 16AP-347, 2017-Ohio-842.....
Werner v. Progressive Preferred Ins. Co.,
533 F.Supp.2d 776, affirmed 310 Fed.Appx.
6

766

CONSTITUTION
U.S. Const. Amend. XIII
U.S. Const. Amend. XIV.

2
2

STATUTES
28 U.S.C. § 1257.....................................
Ohio S.Ct.Prac.R. 18.02.........................
U.S. Supreme Court Rule 13.1 and 13.3

IV

1
2,5
2

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Susan M. Pearsall, respectfully
petitions the Supreme Court of the United States for
a Writ of Certiorari to review the judgment of the
State of Ohio Court of Appeals for the Third District,
entered in Case No. 05-18*14 in that court on
January 14, 2019.

OPINIONS BELOW
The State of Ohio Court of Appeals for the
Third District, in Case No. 05-18*14 entered a
judgment on January 14, 2019. Below, the Common
Pleas Court of Hancock County, Ohio entered a
decision and order on April 5, 2018, and judgment on
May 14, 2018.

JURISDICTION
The jurisdiction of this Court is invoked under
28 U.S.C. § 1257. Pursuant to Supreme Court Rule
13, this is a petition for a writ of certiorari seeking
review of a judgment of a lower state court that is
subject to discretionary review by the state court of
last resort. Petitioner, Susan M. Pearsall, seeks
review of a judgment of the State of Ohio Court of
Appeals for the Third District, after denied
discretionary review by The Supreme Court of the
State of Ohio in an entry entered on May 15, 2019,
1

and then denied rehearing upon Pearsall's timely
filed motion for reconsideration submitted pursuant
to Ohio S.Ct.Prac.R. 18.02, in its reconsideration
entry entered on July 23, 2019 in Case No. 19-0304.
Pursuant to U.S. Supreme Court Rule 13.1 and 13.3,
this petition is filed within 90 days after The
Supreme Court of Ohio's reconsideration entry
entered on July 23, 2019.

CONSTITUTIONAL PROVISIONS INVOLVED
The Thirteenth Amendment to the United States
Constitution, Section 1 provides:
Neither slavery nor involuntary servitude,
except as a punishment for crime where of the party
shall have been duly convicted, shall exist within the
United States, or any place subject to their
jurisdiction.
The Fourteenth Amendment to the United States
Constitution, Section 1 provides:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.
2

STATEMENT OF THE CASE
The case is a battery and medical malpractice
case filed against dentist, Thomas C. Guernsey, DDS
who caused injury to patient Susan M. Pearsall.
The case proceeded to trial by jury on January
29, 2018. On January 30, 2018, after the conclusion
of plaintiffs examination of the first witness, Dr.
Thomas C. Guernsey, DDS before the jury, a
settlement was placed in the record.
At a later date, the defendant then served a
motion requesting the court to order the plaintiff to
sign an unseen document in a motion titled
’’MOTION TO ENFORCE SETTLEMENT
AGREEMENT" (Feb. 27, 2018). In his motion the
defendant requested merely that the court order
plaintiff to sign. Of note, the defendant's motion did
not yet request the court to give effect to an
unsigned, proposed contract by issuing the proposed
contract as a court order. Nor did the motion cite any
authority to force plaintiffs signature. No oral
hearing was expressly requested on behalf of the
defendant.
On March 5, 2018, the court filed an order
titled "ORDER (Motion to Enforce Settlement
Agreement filed by Defendant on February 27, 2018).
The order orders "this matter" set for hearing on
March 22, 2018 "to consider said motion."
On March 13, 2018, plaintiff served her
response in opposition of the defendant's motion to
enforce, and on March 15, 2018, plaintiff served a
supplement to her response.
3

On March 22, 2018, (the day of hearing) the
defendant served "hand delivered" his reply. A copy
had also been faxed to the plaintiff the day before. Of
note, it is in the defendant's reply the day before the
hearing that the defendant first requests that, as an
alternative to obtaining plaintiffs signature, the
court instead order the defendant's proposed
settlement agreement as a court order, that he first
cites any authority, and that he first reveals a copy of
the proposed order. This timing did not present a
meaningful opportunity for plaintiff to research the
law or represent herself. The court then had her
begin to go through the defendant's proposed
contract, reading while the court asked her questions
and answering to the court on the spot presently at
the hearing, but then not all the way through the
document the court did not want to continue.
On April 5, 2018, the court filed its
"DECISION AND ORDER (Motion to Enforce
Settlement Agreement filed by Defendant on
February 27, 2018)". The decision directs plaintiff to
sign the "requested release" within thirty (30) days.
Furthermore, it states that in the event that plaintiff
fails to sign the release within the thirty (30) days,
then "she will be deemed to have forfeited her right
to the award" and the court will sign an order
"reflecting the agreement and order that this case
will be dismissed with prejudice."
On April 30, 2018, plaintiff motioned to have
the original case proceed to trial by jury.
The defendant filed his opposition to the case
proceeding to trial by jury on May, 1, 2018.
4

Plaintiff failed to sign as the court directed her
to do within thirty (30) days, which ended on May 5,
2018.
Plaintiff filed her response in support of her
motion for the original case to proceed to trial by jury
on May 8, 2018.
On May 14, 2018 the court entered its
judgment.
On June 11, 2018, plaintiff appealed the May
14, 2018 judgment to the Third District Court of
Appeals. The appellate court ruled issuing a
judgment on January 14, 2019, affirming in part and
reversing in part.
On February 22, 2019, the trial court entered
on remand an amended order pursuant to the
appellate court's judgment.
On February 28, 2019, plaintiff timely filed a
notice of appeal in the Supreme Court of Ohio, but
was denied discretionary review in an entry entered
on May 15, 2019, and then denied rehearing upon
plaintiffs timely filed motion for reconsideration
submitted pursuant to Ohio S.Ct.Prac.R. 18.02, in its
reconsideration entry entered on July 23, 2019 in
Case No. 19-0304.
On March 14, 2019, the defendant filed a
notice of appeal in the Third District Court of
Appeals, Ohio, complaining that the trial court did
not order many of the terms from the defendant's
proposed order.
On September 3, 2019 the appellate court
entered a judgment affirming the judgment that the
defendant appealed from, but that resolved the
5

defendant's assignment of error for him, noting,
"2Appellant agreed at oral argument that if the
underlying order was still enforceable, the
assignment of error was resolved." (Page 4).

REASONS FOR GRANTING THE PETITION
I.
The Ohio trial courts are enforcing contracts
which they have written, rewritten, modified, and
added to without the consent of both parties bound
thereby. The Ohio appellate courts are affirming
these decisions. This is a violation of the
constitutional protection against involuntary
servitude afforded by Section 1 of the Thirteenth
Amendment to the United States Constitution. When
it involves a so-called settlement agreement, even
more precaution is needed to protect rights to
remedy. The lower courts believe they can write
contracts for parties under authority of decisions
such as Murra v. Farrauto, 10th Dist. No. 16AP-347,
2017-Ohio-842, fashioning those less essential terms
that were omitted in order to reach a fair and just
result. This contradicts cases like Montgomery v.
Liberty Twp. Bd. OfEdn., 102 Ohio St. 189, 193, 131
N.E. 497 in which the Ohio Supreme Court asserted
that "[t]he law will not insert by construction for the
benefit of the parties an exception or condition which
the parties either by design or neglect have omitted
from their own contract. "! and Werner v. Progressive
Preferred Ins. Co., 533 F.Supp.2d 776, affirmed 310
Fed.Appx. 766, that held a court must take great
6

care that it does not make the contract speak where
the parties by neglect or design left it silent.
II.
Courts should review settlements and
proposed settlements as a whole, reversing and
affirming as a whole, or approving and disapproving
as a whole. This is a principle in handling settlement
agreements that is already recognized in dealing
with class actions lawsuits. A court cannot modify
the proposed settlement of class action, but must
approve or disapprove of the proposed settlement as
a whole in relation to all those concerned. In re
TeJectronics Pacing Systems, Inc., 137 F.Supp.2d 985
p. 1008, motion denied 148 F.Supp.2d 936. A trial
court may only accept or reject a class action
settlement as agreed to by the parties! the court has
no authority to modify the terms of the agreement.
Hainey v. Parrott, 617 F.Supp.2d 668 (§ III.). The
courts lack authority to modify the terms of the
proposed settlement agreement, but rather, only
parties have power to change terms of their
agreement. Levell v. Monsanto Research Corp., 191
F.R.D. 543. Though the instant case in not a class
action, the same principle should be applied to the
present case. When a court creates an alternative
version of a settlement, by affirming in part and
reversing in part, it deprives parties of due process
and requires parties to litigate while anticipating
alternative versions of a contract, instead of the
version before them. The court has the power to do
only the following: 1. To approve the agreement as
negotiated and agreed to by the parties! 2. To reject
7

the agreement and, in effect, to send the parties back
to the negotiating table, without suggestions or
recommendations by the Court; or 3. To reject the
agreement, as negotiated and approved, but with
suggestions and recommended changes to the
parties. Levell v. Monsanto Research Corp., 191
F.R.D. 543.

CONCLUSION
For the reasons set forth above, a Writ of
Certiorari should be granted.
Respectfully submitted,
Susan M. Pearsall
Pro Se
2447 Tiffin Ave. #139
Findlay, OH 45840
419-889-3564
October 21, 2019

8

